OIG Investigative Reports, New Orleans, Louisiana - 12/07/2011 - Former Jefferson Parish Public School Board Employees Sentenced for Embezzlement Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
Eastern District of Louisiana
NEWS
Four Former Jefferson Parish Public School Board Employees Sentenced For Embezzlement Scheme
FOR IMMEDIATE RELEASE
December 7, 2011
KIMBERLY M. WILLIAMS, age 35, a resident of New Orleans, LA, GESELLE SAVOY, age 58, a resident of Alamogordo, New Mexico, DANAY JACKSON, age 33, a resident of Harvey, LA, and TRACY WALKER, age 41, a resident of Westwego, LA, were   sentenced in federal court today before U.S. District Judge Ivan L.R. Lemelle,   announced U. S. Attorney Jim Letten. A fifth defendant, AMANDA   JACKSON, age 55, a resident of Harvey, LA will be sentenced on January   18, 2012.
WILLIAMS, SAVOY AND D.   JACKSON, had previously pled guilty to conspiring to commit federal   program fraud while employed by the Jefferson Parish Public School System   (JPPSS). WALKER had previously pled guilty to misprision of a   felony.
WILLIAMS and SAVOY were both sentenced to 5   years probation with six months home confinement and were ordered to pay   $132,152 in restitution to the Jefferson Parish Public School System. D.   JACKSON was sentenced to 5 years probation and was ordered to pay   $9,712.50 in restitution to the Jefferson Parish Public School System. WALKER   was sentenced to 3 years probation and ordered to pay $11,820.00 in restitution   to the Jefferson Parish Public School System.
According to court documents, WILLIAMS, SAVOY, D. JACKSON, and WALKER were all employees of JPPSS but none were certified teachers or qualified to   perform tutoring, testing, or remediation for JPPSS. The bill of information   charged that WILLIAMS and SAVOY submitted   fraudulent payroll documents for themselves and D. JACKSON and WALKER so that defendants received approximately $132,152.00 in   supplemental pay and stipends from JPPSS’ Louisiana Education Assessment Program   (LEAP), Graduate Exit Examination (GEE) tutoring fund, Education Excellent (EE)   fund as well as a general fund.
The case was investigated by U.S. Secret Service, U.S. Department of Education,   the Louisiana Electronic and Financial Crimes Task Force and the Jefferson   Parish Sheriffs’ Office. The case was prosecuted by Assistant U. S. Attorney   Julia K. Evans
Top
Printable view
Last Modified: 01/06/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov